Appendix

Order Denying Petition for Rehearing
Feb. 16, 2021

2a

Appellate Case: 19-5114

Document: 010110480330

Date Filed: 02/16/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

February 16, 2021
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
No. 19-5114
(D.C. No. 4:19-CR-00116-JED-1)
(N.D. Okla.)

v.
IRA LEE WILKINS,

Defendant - Appellant.
_________________________________
ORDER
_________________________________
Before BRISCOE, MURPHY, and BACHARACH, Circuit Judges.
_________________________________
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Appellant’s second motion for extension of time to file a petition for rehearing
filed on January 29, 20201 is denied as moot.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

3a

Order and Judgment
Jan. 6, 2021

4a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS

FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,

January 6, 2021
Christopher M. Wolpert
Clerk of Court

No. 19-5114
(D.C. No. 4:19-CR-00116-JED-1)
(N.D. Okla.)

v.
IRA LEE WILKINS,

Defendant - Appellant.
_________________________________________
ORDER AND JUDGMENT *
__________________________________________
Before BRISCOE, MURPHY, and BACHARACH, Circuit Judges.
___________________________________
Mr. Ira Lee Wilkins was convicted of possessing a firearm after a
felony conviction. See 18 U.S.C. § 922(g)(1). On appeal, Mr. Wilkins
argues that the district court plainly erred before trial and at the
sentencing.
Before trial, the attorneys stipulated to two elements: (1) a prior
felony conviction and (2) knowledge of the prior felony conviction. The

*

We conclude that oral argument would not materially help us to
decide the appeal. See Fed. R. App. P. 34(a)(2)(C); 10th Cir. R. 34.1(G).
So we have decided the appeal based on the record and the parties’ briefs.

Our order and judgment does not constitute binding precedent except
under the doctrines of law of the case, res judicata, and collateral estoppel.
But the order and judgment may be cited for its persuasive value if
otherwise appropriate under Fed. R. App. P. 32.1(a) and 10th Cir. R.
32.1(A).
5a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 2

district court accepted these stipulations, but Mr. Wilkins argues that the
district court shouldn’t have accepted them without confirming that he had
personally agreed. But even if the district court had erred, the error would
not have affected the fairness, integrity, or public reputation of the judicial
proceedings. We thus affirm the conviction.
At sentencing, the district court imposed supervised-release
conditions, including inpatient treatment for drug abuse. Mr. Wilkins
argues that the district court plainly erred by requiring inpatient treatment
without particularized findings. Even if the district court had erred,
however, the error would not have affected Mr. Wilkins’s substantial
rights. So we also affirm the sentence.
1.

Before trial, the district court accepted stipulations that Mr.
Wilkins had a prior felony conviction and had known that the
conviction was for a felony.
On a charge of possessing a firearm after a felony conviction, the

government must prove four elements: (1) the defendant had a prior
conviction of a crime punishable by over a year in prison, (2) the
defendant knew of the prior conviction, (3) the defendant knowingly
possessed a firearm, and (4) the possession was in or affected interstate
commerce. 18 U.S.C. § 922(g)(1); see United States v. Trujillo, 960 F.3d
1196, 1200–01 (10th Cir. 2020). Before trial, the district court accepted
stipulations to the first two elements. But the district court did not read the
stipulations aloud or ask Mr. Wilkins if he had agreed to them.

6a

Appellate Case: 19-5114

2.

Document: 010110460697

Date Filed: 01/06/2021

Page: 3

The jury found Mr. Wilkins guilty of possessing a firearm after a
felony conviction.
In light of the stipulations, the government did not present any

evidence about the existence of a prior felony conviction or Mr. Wilkins’s
knowledge of his status as a convicted felon. But the content of the
stipulations was mentioned three times.
The prosecutor referred to the stipulations in her opening statement:
“The defendant has stipulated that he had been convicted of a crime we
call a felony.” R., vol. II at 86.
The district court then referred to the stipulations in the opening
instructions to the jury:
[T]he parties have stipulated that . . . [Mr. Wilkins] was a
convicted felon, and knew that he was a convicted felon . . . .
Therefore, [those] elements are proven beyond a reasonable
doubt, and the government need not present evidence that the
defendant was a convicted felon and knew that he was a
convicted felon.
Id. at 88; id., vol. I at 46.
After the evidence closed, the prosecutor referred to the substance of
the stipulations in her closing argument.
But Mr. Wilkins never objected to the court’s acceptance of the
stipulations. With these stipulations, the jury returned a guilty verdict.

7a

Appellate Case: 19-5114

3.

Document: 010110460697

Date Filed: 01/06/2021

Page: 4

A presentence investigation report summarized Mr. Wilkins’s
criminal history and drug use.
Before sentencing, a probation officer prepared a presentence report,

which discussed Mr. Wilkins’s criminal record and history of drug use.
According to the presentence report, Mr. Wilkins had seven prior
sentences exceeding a year:
1.

second-degree burglary of a habitation (five years in prison),

2.

aggravated robbery (five years in prison),

3.

unlawful possession of a controlled substance (five years in
prison),

4.

knowing concealment of stolen property (three years in prison),

5.

larceny of lost property (three years in prison),

6.

possession of forged notes or instruments (three years in
prison), and

7.

driving under the influence of alcohol (second offense) (three
years in prison).

The report also noted that for two of the convictions (second-degree
burglary of a habitation and aggravated robbery), Mr. Wilkins had spent
roughly 1–1/2 years in prison.
The presentence report not only listed the seven sentences exceeding
a year but also described Mr. Wilkins’s history of drug use. This history
included
•

daily use of marijuana, cocaine, and opiates; and

•

occasional use of methamphetamine.

8a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 5

Mr. Wilkins did not object to these parts of the presentence report,
and the district court adopted them. On appeal, Mr. Wilkins does not
question these parts of the presentence report.
4.

At sentencing, the district court imposed a special condition
requiring inpatient drug treatment.
At the sentencing, Mr. Wilkins asked for residential drug treatment

while in prison. The district court recommended approval of residential
drug treatment, pointing to Mr. Wilkins’s “history of substance abuse.” Id.,
R., vol. II at 69–71. The court also imposed

5.

•

a prison term of 70 months and

•

supervised-release terms, including inpatient treatment for drug
abuse.

We review both issues for plain error.
Mr. Wilkins did not object when the district court accepted the

stipulations and imposed inpatient drug treatment. So we review both
issues for plain error. See United States v. Mason, 85 F.3d 471, 472 (10th
Cir. 1996) (stipulation to an element); United States v. Koch, 978 F.3d 719,
724 (10th Cir. 2020) (adoption of a special condition of supervised
release). Under the plain-error standard, we can reverse only if (1) the
court committed an error, (2) the error was plain, (3) the error affected
substantial rights, and (4) the error seriously affected the fairness,

9a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 6

integrity, or public reputation of judicial proceedings. Koch, 978 F.3d at
724.
6.

Even if the district court had obviously erred by accepting the
stipulations, the error would not have affected the fairness,
integrity, or public reputation of judicial proceedings.
The Constitution requires the government to prove every element of

the offense, United States v. Gaudin, 515 U.S. 506, 510 (1995), but a
defendant may waive this requirement by stipulating to an element, Mason,
85 F.3d at 472–73. The district court can accept the stipulation only if the
defendant personally agreed to it. See Johnson v. Cowley, 40 F.3d 341, 346
(10th Cir. 1994) (stating that “if a stipulation is made, the court must
determine whether the defendant agreed to it”).
Mr. Wilkins argues that the district court plainly erred by accepting
the stipulations without confirming his agreement. 1 But even if Mr.
Wilkins had satisfied the first three prongs of the plain-error standard, his
argument would have failed at the fourth prong. 2

1

Before the district court accepted the stipulations, Mr. Wilkins had
twice indicated his displeasure with his attorney. First, Mr. Wilkins had
filed an “Invocation of Rights” and asked the court to require defense
counsel to furnish him with all of the case records. Second, defense
counsel had told the court that Mr. Wilkins “wishe[d] to have [counsel]
withdrawn.” R., vol. II at 25. Mr. Wilkins then addressed the court, stating
that defense counsel had not done anything asked, had “not conferred,” and
had not provided any representation. Id. at 27. The court responded that “it
was just too late” to address Mr. Wilkins’s request for withdrawal of his
counsel. Id. at 29.
2

The parties disagree on
10a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 7

At this prong, we conclude that an error would not have seriously
affected the fairness, integrity, or public reputation of judicial proceedings
because the presentence report supplied overwhelming and uncontroverted
support for the stipulations.
The presentence report shows that Mr. Wilkins had seven previous
convictions with sentences exceeding one year. 3 See Part 3, above. For two

•

whether the district court made an obvious error and

•

whether an error affected Mr. Wilkins’s substantial rights.

In discussing whether an error would have affected substantial rights, the
parties take different approaches.
Mr. Wilkins argues that we should consider only the trial evidence.
The Second and Seventh Circuit Courts of Appeal support this approach.
United States v. Miller, 954 F.3d 551, 558 (2d Cir. 2020); United States v.
Maez, 960 F.3d 949, 961 (7th Cir. 2020). In contrast, the government asks
us to follow the Fifth Circuit, which has allowed judicial notice of the
facts of a prior felony conviction. United States v. Staggers, 961 F.3d 745,
755 & n.1 (5th Cir. 2020), cert. denied, No. 20-5051, 2020 WL 5883456
(U.S. Oct. 5, 2020). But we need not decide whether prong three limits our
review to the trial evidence because Mr. Wilkins has not satisfied the
fourth prong.
3

In a letter of supplemental authorities, Mr. Wilkins argues for the
first time that we should confine ourselves to the trial record when
considering the fourth prong of the plain-error standard. This argument is
too late. In responding to the opening brief, the government relied on
excerpts from the presentence report. Mr. Wilkins filed a reply brief, but
he did not suggest that the court’s consideration of the fourth prong should
be limited to the trial record. At the time, all of the circuit courts to
consider the issue had held that courts could look beyond the trial record to
analyze the fourth prong. See Miller, 954 F.3d at 560; Maez, 960 F.3d at
949, 963; United States v. Owens, 966 F.3d 700, 706–07 (8th Cir. 2020).

11a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 8

of these convictions, he spent roughly 1–1/2 years in prison. See id. Given
the numerous sentences exceeding one year and actual incarceration of
more than a year on two of the convictions, Mr. Wilkins could not
reasonably challenge the existence of a prior felony conviction or his
knowledge that he had been convicted of a felony. See United States v.
Trujillo, 960 F.3d 1196, 1208 (10th Cir. 2020) (noting that a defendant
who had six felony convictions and had served four years in prison “[could
not] credibly claim he was unaware that he was a felon”).
Because the presentence report supplied overwhelming,
uncontroverted evidence of the stipulated elements, Mr. Wilkins has not
satisfied the fourth prong. See id. at 1208–09 (“Where the evidence of
Defendant’s knowledge of his felony status is ‘overwhelming and
uncontroverted,’ the real threat to the ‘fairness, integrity and public
reputation of judicial proceedings’ would be if Defendant were permitted

After we decided to forgo oral argument, Mr. Wilkins filed a letter of
supplemental authorities, pointing out that the Third Circuit had recently
created a circuit split by restricting itself to the trial evidence when
considering the fourth prong of the plain-error standard. United States v.
Nasir, ___ F.3d ___, 2020 WL 7041357, at *11–18 (3d Cir. Dec. 1, 2020) (en
banc). But it was too late to inject this issue through the letter of
supplemental authorities. See United States v. Hernandez, 847 F.3d 1257,
1262 (10th Cir. 2017) (“It is well established that we will not consider
issues raised for the first time in a Rule 28(j) letter . . . because, in part,
the language of Rule 28(j) underscores that an appellant’s supplemental
authority must relate to an issue previously raised in a proper fashion.”
(quoting Thacker v. Workman, 678 F.3d 820, 842 (10th Cir. 2012))).

12a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 9

to withdraw from a plea unequivocally supported by the facts . . . .”
(quoting United States v. Cotton, 535 U.S. 625, 634 (2002)). 4 We thus
reject this claim at the fourth prong of the plain-error standard.
7.

Even if the district court had obviously erred by ordering
inpatient treatment without particularized findings, the error
would not have affected Mr. Wilkins’s substantial rights.
Mr. Wilkins also argues that the district court obviously erred by

ordering inpatient drug treatment without making particularized findings.
For the sake of argument, we can assume that the district court had
committed an obvious error. Even with this assumption, however, Mr.
Wilkins would have needed to show an effect on his substantial rights. See

4

Mr. Wilkins argues that “where a constitutional error has affected the
defendant’s substantial rights, thus satisfying the third prong of the plain
error test, ‘it is ordinarily natural to conclude that the fourth prong is also
satisfied and reversal is necessary.’” United States v. Miller, 891 F.3d
1220, 1237 (10th Cir. 2018) (quoting United States v. Gonzalez–Huerta,
403 F.3d 727, 745 (10th Cir. 2005)), cert. denied, 139 S. Ct. 1219 (2019).
We assume for the sake of argument that the third prong was satisfied. See
United States v. Gaudin, 515 U.S. 506, 510 (1995).
But this assumption does not affect the outcome. In Johnson v.
United States, 520 U.S. 461 (1997), the U.S. Supreme Court considered a
similar issue. There one element of the petitioner’s offense was not
submitted to the jury, violating the constitutional requirement to prove
each element of the offense. 520 U.S. at 467–68. The Supreme Court
assumed that the petitioner had satisfied the third prong of the plain-error
standard. Id. at 469. Even with this assumption, the Court recognized that
the evidence of guilt had been “overwhelming” and “uncontroverted.” Id.
at 470. Given the overwhelming, uncontroverted evidence of guilt, the
Court upheld the conviction at the fourth prong of the plain-error standard
even if the third prong had been satisfied. Id.

13a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 10

Part 5, above. For that showing, Mr. Wilkins needed to establish a
reasonable probability that the process of making particularized findings
would have led the district court to forgo a requirement of inpatient
treatment. United States v. Koch, 978 F.3d 719, 730 (10th Cir. 2020).
We assume for the sake of argument that the district court could
impose inpatient treatment only upon a particularized finding of
compelling circumstances. See id. at 725 (stating that “when a court
imposes a special condition that invades a fundamental right or liberty
interest, the court must justify the condition with compelling
circumstances”); cf. United States v. Bear, 769 F.3d 1221, 1231 (10th Cir.
2014) (stating that inpatient treatment affects a significant liberty interest).
Given this assumption, we consider whether the district court had a basis
to find compelling circumstances. Koch, 978 F.3d at 729 (citing United
States v. Francis, 891 F.3d 888, 898 (10th Cir. 2018)).
The record supported some kind of drug treatment: The presentence
report showed a lengthy history with illegal drugs, and the sentencing
guidelines recommended drug treatment if the district court had reason to
believe that the defendant had abused drugs. U.S.S.G. § 5D1.3(d)(4); see
United States v. Henry, 979 F.3d 1265, 1270–71 (10th Cir. 2020). But
treatment can be inpatient or outpatient, and the two vary. See United
States v. Riccio, 567 F.3d 39, 40 (1st Cir. 2009) (stating that outpatient
mental treatment materially differs from inpatient mental treatment).

14a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 11

Inpatient treatment entails a “greater infringement[] on a defendant’s
liberty than outpatient . . . care or other more routine treatment and
assessment tools.” Bear, 769 F.3d at 1230.
One could arguably question the necessity of inpatient treatment.
After all, supervised release will begin only after Mr. Wilkins has spent
almost six years in prison 5 and home confinement or community
corrections. During that time, he may be able to obtain treatment, as the
district court recommended. See 18 U.S.C. § 3621(b) (“The Bureau shall
make available appropriate substance abuse treatment for each prisoner the
Bureau determines has a treatable condition of substance addiction or
abuse.”). By the time that he is released, inpatient treatment might prove
unnecessary. 6
Despite that possibility, we conclude that Mr. Wilkins has not shown
a reasonable probability that he would have obtained a different sentence

5

The Bureau of Prisons may shorten Mr. Wilkins’s sentence for
satisfactory behavior. 18 U.S.C. § 3624(b).
6

Mr. Wilkins also argues that the record does not show a need for
inpatient treatment, pointing out that the Bureau of Prisons has provided
nonresidential treatment for many drug addicts. See Christopher J. Mumola
and Jennifer C. Karberg, Drug Use and Dependence, State and Federal
Prisoners, 2004, Bureau of Justice Statistics at 2 tbl.2 and 7 tbl. 5 (Oct.
2006), www.bjs.gov/content/pub/pdf/dudsfp04.pdf; Bureau of Prisons,
Program Statement 7430.02: Community Transitional Drug Abuse
Treatment (April 14, 1999), https://www.bop.gov/policy/
progstat/7430_002.pdf. But the Bureau of Prisons’ policy does not bind the
district court.

15a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 12

but for the district court’s error. The district court considered Mr.
Wilkins’s request for residential treatment and had at least some basis to
find compelling circumstances. These circumstances included Mr.
Wilkins’s history of drug abuse, which starting with marijuana when he
was just thirteen years old and escalated in adulthood to methamphetamine
and daily use of cocaine and opiates. Despite this escalation of drug use,
the district court had to assess the need for inpatient treatment years in
advance.
In assessing that need, the court would presumably have considered
Mr. Wilkins’s request for residential treatment during his prison term.
Though the court recommended such treatment, the ultimate decision on
placement lay with the Bureau of Prisons. 18 U.S.C. § 3621(e); 28 C.F.R.
§ 550.53(e). And the court pointed out that Mr. Wilkins might not stay in
prison long enough to obtain residential treatment. 7 So the court had reason

7

Mr. Wilkins argues that the prison term was long enough to obtain
treatment. But placement in the program lay within the discretion of the
prison’s Drug Abuse Program Coordinator, 28 C.F.R. § 550.53(e), and the
warden retains discretion to find any inmate ineligible for participation in
the program, 28 C.F.R. § 550.53(a)(3). Even if Mr. Wilkins were chosen
for residential treatment, he could participate only if adequate resources
existed. In the past, other courts have noted that prisoners’ demand for
residential drug treatment exceeded availability. E.g., Close v. Thomas,
653 F.3d 970, 972–73 (9th Cir. 2011); see also Drug Abuse Treatment
Program, 81 Fed. Reg. 24,484–02, 24,488, 2016 WL 1625949 (Apr. 26,
2016) (stating that over 5,000 inmates were on the wait list for the prison
system’s program of residential drug treatment); Drug Abuse Treatment
Program: Subpart Revision and Clarification and Eligibility of D.C. Code
Felony Offenders for Early Release Consideration, 74 Fed. Reg. 1,892–01,
16a

Appellate Case: 19-5114

Document: 010110460697

Date Filed: 01/06/2021

Page: 13

to believe that Mr. Wilkins might not otherwise obtain adequate treatment
despite his need.
Given the escalating drug use and uncertainty of residential treatment
in prison, the court had at least some basis to find compelling
circumstances. In light of the basis for this finding, we conclude that Mr.
Wilkins did not show an effect on his substantial rights. We thus reject his
challenge to the condition requiring inpatient drug treatment.
* * *
We affirm, concluding that Mr. Wilkins failed to satisfy the plainerror standard for either the conviction or the requirement of inpatient drug
treatment.
Entered for the Court

Robert E. Bacharach
Circuit Judge

1,893, 2009 WL 76657 (Jan. 14, 2009) (noting that over 7,000 inmates
were on the wait list for the prison system’s program of residential drug
treatment). We thus have no way of knowing whether Mr. Wilkins will be
able to participate in the Bureau of Prisons’ residential drug-treatment
program despite the district court’s recommendation.
17a

Excerpt of Sentencing Transcript
Dec. 19, 2019

18a

Case 4:19-cr-00116-JED Document 71 Filed 02/19/20 Page 4 of 9
Appellate Case: 19-5114

Document: 010110325640

Date Filed: 03/26/2020

Page: 69

Restricted

4
1

THE COURT:

RDAP?

2

THE DEFENDANT:

3

THE COURT:

4

THE DEFENDANT:

5

THE COURT:

6

may not make it, but you may.

7

right.

Yes, sir.

Well, I think that would be helpful.
Yes, sir.

I don't know the time you will be in, you

8

THE DEFENDANT:

9

THE COURT:

Okay.

So I hope you'll get that.

All

Thank you, sir, very much.

I find the report to be accurate and to

10

be incorporated into the court's findings of fact.

11

findings of fact include a total offense level of 20 and a

12

criminal history category of V.

13

Sentencing Guidelines, a custody range of 70 to 87 months;

14

supervised release is one to three years; probation is

15

ineligible; a fine of $15,000 to $150,000; restitution is not

16

applicable; and a special assessment of $100 is mandatory.

17

Those

And under the United States

The court notes for the record that neither the government

18

nor the defendant has filed an objection to the presentence

19

report.

20

Additionally, neither party has filed a motion or

21

sentencing memorandum requesting a departure or variance from

22

the advisory guideline range.

23

The court recognizes that the United States Sentencing

24

Guidelines are advisory and not mandatory, but has considered

25

the sentencing guidelines along with all of the factors set
Terri Beeler, RMR-FCRR
U.S. District Court - NDOK

19a

69

Case 4:19-cr-00116-JED Document 71 Filed 02/19/20 Page 5 of 9
Appellate Case: 19-5114

Document: 010110325640

Date Filed: 03/26/2020

Page: 70

Restricted

5
1

forth in Title 18 of the United States Code, Section 3553(a) to

2

reach an appropriate and reasonable sentence in this case.

3

In determining a sentence, the court has considered the

4

nature of the offense and the defendant's criminal history and

5

personal characteristics.

6

This case involved the defendant possessing a firearm and

7

ammunition after sustaining multiple felony convictions.

8

defendant is 38 years old with a serious criminal history,

9

including a previous federal conviction for conspiracy to

The

10

commit fraud in connection with access devices, a history of

11

substance abuse, and a sporadic employment history.

12

Based on these factors, a sentence within the advisory

13

guideline range will serve as an adequate deterrent to this

14

defendant as well as others, promote respect for the law,

15

provide just punishment for the offense, and provide protection

16

for the public.

17

considered in determining an appropriate sentence in this case.

18

Sentencing disparities among defendants were

A term of supervised release is appropriate with special

19

conditions based upon the aforementioned factors and will allow

20

the defendant time to reintegrate into the community upon

21

release from imprisonment, be monitored for future law

22

violations, and receive appropriate drug treatment.

23

Restitution is not a factor.

24
25

In accordance with applicable law, the court hereby
imposes the following sentence:

It is the order and judgment

Terri Beeler, RMR-FCRR
U.S. District Court - NDOK

20a

70

Case 4:19-cr-00116-JED Document 71 Filed 02/19/20 Page 6 of 9
Appellate Case: 19-5114

Document: 010110325640

Date Filed: 03/26/2020

Page: 71

Restricted

6
1

of the court that the defendant, Ira Lee Wilkins, is hereby

2

committed to the custody of the Bureau of Prisons to be

3

imprisoned for a term of 70 months.

4

The court recommends that the defendant be placed in a

5

facility that will allow him the opportunity to participate in

6

the Bureau of Prisons' Residential Drug Abuse Program.

7

what we're talking about.

8

THE DEFENDANT:

9

THE COURT:

That's

Okay.

The court orders that the preliminary

10

order of forfeiture of firearm, magazine, and ammunition,

11

that's document number 46, is hereby incorporated by reference.

12

Based on the defendant's financial profile as is outlined

13

in the presentence report, the court finds that the defendant

14

does not have the ability to pay a fine, therefore no fine will

15

be imposed.

16

Upon release from imprisonment, the defendant shall be

17

placed on a term of supervised release for a period of three

18

years.

19

additional term of imprisonment of up to two years could be

20

imposed at each revocation.

Should the term of supervised release be revoked, an

21

Immediately upon release from confinement, but in no event

22

later than 72 hours, the defendant must report in person to the

23

probation office in the district where the defendant is

24

authorized to reside.

25

While on supervised release, the defendant must not commit
Terri Beeler, RMR-FCRR
U.S. District Court - NDOK

21a

71

Court Records from Collin County, Texas
Case No. 219-81049-99

22a

23a

